                    NATIONAL SCIENCE F O F A T I C
                        ARLINGTON, VA 22230




    Office of
Inspector General



MEMORANDUM




 SUBJECT:    Allegation of

       TO:   Case No. I93010004




On October 6, 1993, we contacted Dr.               , the cognizant
NSF program director for the grant.                stated that he
believed the grant to be                               toward its
established goals, which he confirmed with a site visit on October
8, 1993, and that he was unaware of any serious problems.

We secured S/A-               emission to contact the confidential
source for an interview-. We interviewed Ms.
former employee of *who        worked on the gra
to August 1992, by p ne on three separate occasions (see File Memo
dated June 23, 1994). We found that the information provided by
                ndicated a possible failure of th-to       fulfill
program goa       rather than criminal actions.
As we found no evidence of violations of law, and because the NSF
program director ~elievedthe grant to be accomp?.iuhingits goals,
we see no need for further investigation at this time.
This case is closed.
